Bob Ferguson

ATTORNEY GENERAL OF WASHINGTON
Solicitor General Division
PO Box 40100 • Olympia WA 98504-0100 • (360) 753-6200
June 21, 2021
The Honorable Scott Harris
Clerk of Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re:

Arlene’s Flowers, Inc. v. Washington
U.S. Supreme Court Docket No. 19-333

Dear Mr. Harris:
The State of Washington respectfully submits this letter in response to the
Supplemental Brief of Petitioners filed June 18, 2021.
I.

Introduction

Petitioners’ “supplemental brief ” abuses the purpose of supplemental briefing,
ignores the import of this Court’s recent decisions, and continues to misrepresent the
facts of this case and the holding below. There is still no basis to grant certiorari.
This Court’s rules are clear: “A supplemental brief shall be restricted to new
matter[.]” Rule 15(8). But there is little new in Petitioners’ supplemental brief. Every
case they cite as creating a circuit split as to their first question presented was
addressed in their prior briefing, and the State’s Brief In Opposition explained why
the alleged split was illusory. The limited new material Petitioners do offer,
meanwhile, is misrepresented. They cite a recent Washington Supreme Court opinion
as supposedly evincing hostility to religion, but they distort that holding and ignore
other recent cases where the same court has ruled in favor of religious claims.
Petitioners’ ostensible justification for filing the supplemental brief was this
Court’s decision in Fulton v. City of Philadelphia¸ No. 19-123, slip op. (U.S. June 17,
2021), but they cite Fulton only in passing and ignore the import of Fulton and other
recent rulings. Fulton reiterated that “[o]ur society has come to the recognition that
gay persons and gay couples cannot be treated as social outcasts or as inferior in
dignity and worth.” Slip. op. 14 (quoting Masterpiece Cakeshop, Ltd. v. Colo. Civil
Rights Comm’n, 138 S. Ct. 1719, 1727 (2018)). And this Court has made clear, in
language quoted by the Washington Supreme Court below, that cases like this one

ATTORNEY GENERAL OF WASHINGTON
The Honorable Scott Harris
June 21, 2021
Page 2
“must be resolved with tolerance, without undue disrespect to sincere religious
beliefs, and without subjecting gay persons to indignities when they seek goods and
services in an open market.” Pet. App. 2a-3a (quoting Masterpiece, 138 S. Ct. at 1732).
Petitioners’ approach ignores these principles. Their policy is that they will not
prepare any flower arrangement for the wedding of a gay or lesbian couple, even an
arrangement copied from a picture book identical to one they would prepare for a
heterosexual couple. It is thus clear that their objection is not to any “message” sent
by the flowers themselves, but rather to the message they perceive would be sent by
serving a gay couple. Their proposed rule would mean that any “expressive”
business—a category Petitioners cannot coherently define1—could refuse service to
LGBTQ individuals even if it would provide the exact same service to heterosexual
customers. This rule would unquestionably “subject[ ] gay persons to indignities when
they seek goods and services” and treat “gay persons and gay couples . . . as social
outcasts or as inferior in dignity and worth.”
Petitioners’ dangerous theory is not limited to allowing discrimination against
LGBTQ individuals. Their own expert acknowledged that the rule they advocate
would allow businesses to refuse service “in the case of [an] interracial marriage[.]”
State’s BIO App. 102a. And their counsel argued to this Court that it would allow
discrimination based on religion that is currently prohibited: a baker, florist, printer,
or even jeweler could refuse to serve an interfaith couple for their wedding.2
In sum, Petitioners’ supplemental brief relies on old material and
misrepresentations to continue advocating for exactly the sort of rigid, unworkable
rule this Court has repeatedly rejected. The Court should deny certiorari.
II.

Petitioners’ Alleged Circuit Split as to Their First Question Presented
Offers Nothing New, Remains Illusory, and Continues to Rely on
Misrepresenting the Record

A supplemental brief “shall be restricted to new matter[,]” Rule 15.8, but
Petitioners’ brief offers almost nothing new. In their primary argument—alleging a
4-2 “jurisdictional split” as to their compelled speech claim—every one of the six cases
allegedly creating the split was addressed in their prior briefing. Their argument
simply repeats the same arguments they have already made and offers nothing new
for the Court’s consideration.
Oral Argument Tr. Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights Comm’n, at 11-18
https://www.supremecourt.gov/oral_arguments/argument_transcripts/2017/16 -111_f314.pdf)
(Petitioners’ counsel arguing that bakeries, florists, jewelers, and printers are sufficiently “expressive”
to merit protection, but chefs, architects, hair stylists, and makeup artists are not).
1

2

Id. at 22.

ATTORNEY GENERAL OF WASHINGTON
The Honorable Scott Harris
June 21, 2021
Page 3
They also continue to misrepresent the record in this case. This case does not
present their first question. The injunctions issued by the trial court and upheld on
appeal by the Washington Supreme Court do not require Ms. Stutzman or Arlene’s
Flowers to communicate any particular message, celebratory or otherwise. The
injunctions do not require them to sell any particular goods or services—including
wedding flowers. State’s BIO at 7 (citing Pet. App. 140a). They do not require
Ms. Stutzman to personally attend or participate in any way in any kind of
“celebration.” State’s BIO at 7 (citing Pet. App. 4a, 12a). The omission of these
requirements from the injunctions was emphasized by both the trial court and the
Washington Supreme Court. State’s BIO at 12-13 (citing Pet. App. 12a, 197a-98a
n.23; Pet. App. 4a).
Nor, in any event, is the selling of flowers to a same-sex couple an endorsement
of their marriage. Ms. Stutzman herself admitted as much when she testified that
“providing flowers for a wedding between Muslims would not necessarily constitute
an endorsement of Islam, nor would providing flowers for an atheist couple endorse
atheism.” State’s BIO at 18 (quoting Pet. App. 43a, 95a). She specifically testified that
her goal in providing wedding flowers is not to express her own message, but to convey
the customer’s message. State’s BIO at 19 (citing Pet. App. 26a, 43a).
In short, there is no cognizable jurisdictional split, and even if there were a
split as to the compelled communication of a “celebratory message,” that issue is not
presented in this case.
III.

Petitioners’ Alleged Circuit Split as to Masterpiece’s Reach Is Illusory
and Not Implicated Here

Petitioners’ secondary argument is an alleged circuit split about whether
Masterpiece allows executive officials to act with hostility towards religion, but they
misrepresent the cases cited (including this one), and in any event this case presents
no opportunity to address that issue because there is no evidence of executive
hostility.
Petitioners claim that the court below and two others have held that “no
religious-neutrality requirement applies to [executive] officials[.]” Suppl. Br. 9. That
is false.
On remand in this case, the Washington Supreme Court fully embraced this
Court’s holding in Masterpiece, recognizing that “[d]isputes like those presented in
Masterpiece and Arlene’s Flowers ‘must be resolved with tolerance, without undue
disrespect to sincere religious beliefs, and without subjecting gay persons to
indignities when they seek goods and services in an open market.’ ” State’s BIO at 9
(quoting Pet. App. 2a-3a, 17a (alteration added by State’s BIO) (quoting Masterpiece,
138 S. Ct. at 1732)). While the court did reject Petitioners’ attempt to revive a

ATTORNEY GENERAL OF WASHINGTON
The Honorable Scott Harris
June 21, 2021
Page 4
selective enforcement claim that they had earlier abandoned, State’s BIO at 11 (citing
Pet. App. 23a-24a), the court also explicitly rejected any suggestion that “the
Washington attorney general is free to enforce the WLAD [Washington Law Against
Discrimination] in a manner that offends the state or federal constitution.” State’s
BIO at 26 (quoting Pet. App. 26a).
The other cases cited by Petitioners are no more supportive of their claim. The
first, Carson v. Makin, 979 F.3d 21 (1st Cir. 2020), pet. for cert. filed, No. 20-1088
(Feb. 4, 2021), addressed a state requirement that parents choose a nonsectarian
private school to be approved for public funds to pay for tuition. The case turned on
how to apply Trinity Lutheran Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012
(2017), and Espinoza v. Montana Department of Revenue, 140 S. Ct. 2246 (2020).
Almost parenthetically, appellants suggested that statements by Maine legislators in
1997 were analogous to those of the Colorado Civil Rights Commission in Masterpiece.
Carson, 979 F.3d at 45-46. The First Circuit made no holding as to the scope of
Masterpiece; in a single short paragraph, it stated only that Masterpiece provided no
reason to depart from two earlier First Circuit decisions that already had rejected
animus claims against the 1997 legislators. Id. (citing Eulitt ex rel. Eulitt v. Maine,
Dep't of Educ., 386 F.3d 344, 355 (1st Cir. 2004); Strout v. Albanese, 178 F.3d 57
(1st Cir. 1999)). Masterpiece played no consequential role in the First Circuit’s
analysis or the appellants’ arguments—it is not even mentioned in the petition for
certiorari (Docket No. 20-1088).
Petitioners’ second citation is to dictum in a footnote in an unpublished Sixth
Circuit decision, Shavers v. Almont Township, Mich., 832 F. App’x 933, 939 n.3
(6th Cir. 2020). Mr. Shavers alleged that racial animus motivated a delay in approval
of his land use site plan. The court held there was no evidence of animus in the record.
Id. at 939. In the footnote, the court also rejected Mr. Shavers’ attempt to invoke
Masterpiece in his reply brief. It described the circumstances and holding in
Masterpiece as “a far cry from Shavers’ allegations of discriminatory conduct, which
involves neither a First Amendment religion claim nor an act ‘by an adjudicatory
body.’ ” Id. at 939 n.3 (quoting Masterpiece, 138 S. Ct. at 1730).
Even if there were a circuit split as to this question, it would not be implicated
here. This is not a case in which the Washington Supreme Court excused or
overlooked some hostility toward religion by the Washington Attorney General. There
simply has been no hostility toward religion. Period. As summarized in the State’s
Brief in Opposition, the Attorney General has, from the very beginning of this case,
treated Ms. Stutzman’s religious beliefs with respect and neutrality. State’s BIO at
29-31. The Attorney General proposed an early resolution under which Petitioners
would have faced no costs and admitted no violation. State’s BIO at 29 (citing
Pet. App. 365a-70a). The Attorney General followed normal procedures and in no way

ATTORNEY GENERAL OF WASHINGTON
The Honorable Scott Harris
June 21, 2021
Page 5
singled out Petitioners. State’s BIO at 29-30. During litigation, the Attorney General
offered multiple ways in which Ms. Stutzman could continue her business, including
providing wedding flowers, without compromising her religious principles or violating
the law, all of which Petitioners rejected. State’s BIO at 30. When the State ultimately
prevailed in the trial court, the Attorney General sought and received only a minimal
penalty ($1,000) and asked for only one dollar in attorney fees and costs. State’s BIO
at 31 (citing Pet. App. 136a).
In claiming anti-religious hostility, Petitioners’ “evidence” is a selectively
edited online video of an unrelated event that occurred years after the facts in this
case. The State has explained the many ways in which Petitioners’ account is
inaccurate. State’s BIO at 31-32. And addressing this issue would have no bearing on
the outcome of this case, because even if the Court somehow concluded that the State
acted with religious hostility, it would have no effect on the action by Respondents
Ingersoll and Freed. Pet. App. 25a.
In sum, neither the Washington Supreme Court decision at issue here nor any
other case cited by Petitioners has understood Masterpiece to exempt the executive
branch from the requirement to treat religious objections neutrally and with respect.
Petitioners still have not identified any relevant split in lower courts’ application of
Masterpiece.
IV.

Petitioners’ Allegation of Religious Hostility by the Washington
Supreme Court Is Baseless

Petitioners similarly fail to show any reason for this Court’s review based on
alleged hostility to religion by the Washington Supreme Court. In both their original
petition and their supplemental brief, Petitioners fail to show any of the signs of
religious hostility akin to those described in Masterpiece. Instead, they appear to find
religious hostility in any legal opinion that does not rule in favor of a religious claim.
As already explained in the State’s Brief in Opposition, the Washington Supreme
Court on remand from this Court showed no signs of religious hostility, but simply
applied Masterpiece. State’s BIO 33. Petitioners’ new authority similarly shows no
reason for this Court’s review.
Petitioners attempt to bolster their meritless claims of religious hostility in
their own case by reference to a subsequent Washington Supreme Court case. Suppl.
Br. at 1-2 (citing Woods v. Seattle’s Union Gospel Mission, 481 P.3d 1060, 1079-84
(Wash. 2021)). Petitioners thus seek to extend this Court’s religious-hostility test
beyond an examination of any individual case to an apparently boundless review of a
court’s body of work. Even if the Court were inclined to adopt this unworkable and
unprecedented approach, neither the case Petitioners cite nor others of the
Washington Supreme Court show any hostility to religion.

ATTORNEY GENERAL OF WASHINGTON
The Honorable Scott Harris
June 21, 2021
Page 6
Petitioners claim that the Washington Supreme Court in Woods used the
decision in Arlene’s Flowers “to rule against people of faith[.]” Suppl. Br. at 1. That
statement is wrong in almost every respect. The majority and concurring opinions in
Woods did not even cite Arlene’s Flowers, let alone use it to rule against anyone.
Woods, 481 P.3d at 1062-73. And describing Woods as ruling against people of faith
is incorrect and overly simplistic. Woods involved a state constitutional challenge to
an exemption from the WLAD for religious organizations in an employment
discrimination case. Id. at 1062. The court upheld the religious exemption but
determined under the state constitution that it could be applied unconstitutionally if
a person’s fundamental right were impacted. Id. In seeking to balance the rights of
employees to be free from discrimination and a religious organization’s right to
exercise its religious beliefs and determine its messengers, the court looked to this
Court’s opinions for guidance. Id. at 1070 (citing Our Lady of Guadalupe Sch. v.
Morrissey-Berru, 140 S. Ct. 2049 (2020); Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. EEOC, 565 U.S. 171 (2012)). Ultimately, the court did not rule
against the religious organization, but remanded to the trial court to determine if the
ministerial exception as described by this Court applied. Woods, 481 P.3d at 1063.
Just as this Court did not demonstrate religious hostility in preserving the right of
religious organizations to determine the messengers of their faith, neither did the
Washington Supreme Court.
Petitioners also take statements in the concurring opinion in Woods out of
context in an effort to show hostility. Suppl. Br. at 11-12. The concurring opinion’s
reference to a “license to discriminate” in the context of an employment
discrimination claim in which the religious organization conceded that it was
discriminating but alleged that it was exempt from anti-discrimination laws, does not
suggest that religious non-profits are “simply looking to discriminate,” as Petitioners
claim. Suppl. Br. at 11-12. Similarly, the concurrence’s concern about a potential
conflict if a person sought to act both as a lawyer for a client and a minister for an
organization shows no hostility, especially as the concurrence explicitly recognized
the propriety of religious considerations in rendering advice. See Woods, 481 P.3d at
1073 (Yu, J., concurring).
Finally, as one would expect from any neutral tribunal, the Washington
Supreme Court sometimes rules in favor of parties raising religious claims, and
sometimes against. In recent years the Washington Supreme Court has overruled
precedent in order to require employers to reasonably accommodate religious
practices under the WLAD and held unreasonable a fire department’s policy
disallowing religious fellowship messages on a message board. Kumar v. Gate
Gourmet, Inc., 325 P.3d 193 (Wash. 2014); Sprague v. Spokane Valley Fire Dep’t, 409
P.3d 160 (Wash. 2018). Petitioners’ tendentious and selective discussion of

ATTORNEY GENERAL OF WASHINGTON
The Honorable Scott Harris
June 21, 2021
Page 7
Washington Supreme Court opinions fails to show any evidence of hostility and
provides no basis for this Court’s review.
In sum, the petition offered no good reason to grant certiorari, and the
supplemental brief does not either. The Court should deny review.
Sincerely,
Digitally signed by Noah Guzzo

Noah Guzzo Purcell Purcell

Date: 2021.06.21 15:28:57 -07'00'

NOAH G. PURCELL
Solicitor General
360-753-6200
wros
cc:
Counsel of Record via the Court’s E-filing Portal

